                                      Offfice off Inspec
                                                       ctor Ge
                                                             eneral
                                     Corrporatioon for N
                                                       Nationa
                                                             al and
                                               C
                                               Community Se  ervice




    AUDIT OFF CORPOR         R NATIONA
                    RATION FOR        AL AND
   COMMUNITY SERVIC CE VOLUNTTEERS IN SERVICE
    TO AMERRICA (VIST
                    TA) GRANTTS AWARD DED TO
      WORLLD WON DEVELOPME
                     E       ENT CENTEER’S
            FITTING BACK IN PR
                             ROGRAM

                      OIG REPORT 12
                                  2-05




                   1201 New
                          w York Ave, NW
                         Suuite 830
                    Washington, DC 205
                                     525

                         (202)) 606-9390




Thiss report was issued to Corrporation mannagement on O   October 28, 2
                                                                       2011. Under
the laws and reg  gulations governing audit ffollow-up, the
                                                          e Corporation is to make
fina
   al managemen                o the reportt’s findings and recommen
                  nt decisions on                                      ndations no
late
   er than April 30,
                 3 2012 and complete
                              c        its c orrective actio
                                                           ons by Octobber 29, 2012.
Connsequently, the reported findings do not necessa       arily represen
                                                                       nt the final
resoolution of the issues presen
                               nted.
                                  Office of Inspeclor General


                                 NATIOONAL&
                                COMMUNITY
                                SERVICEtttl

                                       October 28,2011

TO:           Mary Strasser
              Director, AmeriCo rps*W S~       .

FROM :        Stuart Axenfeld      ~ A~I
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General (OIG) Report 12-05: Audit of the Corporation for
              National and Community Service Volunteers in Service to America (VISTA)
              Grants Awarded to World Won Development Center's Fitting Back In Program

Attached is the final report on the OIG's Audit of the VISTA Grants Awarded to World Won
Development Center's Fitting Back In Program. This audit was performed by OIG staff in
accordance with generally accepted government auditing standards.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by April 30, 2012. Notice of final action is due by October 29, 2012.

If you have questions pertaining to this report, please contact me at (202) 606-9360 or
s.axenfeld@cncsoig.gov; or Thomas Chin, Audit Manager, at (202) 606-9362 or
t.chin@cncsoig.gov.

Attachment

cc:   Billon Constable, Executive Director, Fitting Back In
      William Anderson , Chief Financial Officer
      Rocco Gaudio, Deputy CFO for Grant and Field Financial Management Center
      Michael Berning, Director of Field Liaison
      Theresa Long, Director, OK State Office
      Janet Caranci, Grants Management Specialist, Office of Field Liaison
      Claire Moreno, Audit Liaison, Office of Grants Management




                   1201 New York Avenue, NW *          *
                                                Suite 830  Washington, DC 20525
                      202-606-9390 *                     *
                                     Hotline: 800-452-8210  www.cncsoig.gov

                       Senior Corps * AmeriCorps * Learn and Serve America
                                                            CONTENTS

Section                                                                                                                        Page

Executive Summary ........................................................................................................... 1

Results of Audit .................................................................................................................. 2

Objectives, Scope and Methodology .................................................................................. 8

Background ........................................................................................................................ 9

Exit Conference .................................................................................................................. 10


Appendices

A: Corporation’s Response to Draft Report
B: Fitting Back In’s (World Won Development Center) Response to the Draft Report



                                                    TABLE OF ACRONYMS

                              American Recovery and Reinvestment Act                           ARRA
                              Certified Public Accountant                                      CPA
                              Chief Executive Officer                                          CEO
                              Domestic Volunteer Service Act                                   DVSA
                              General Ledger                                                   GL
                              Office of Inspector General                                      OIG
                              Office of Management and Budget                                  OMB
                              Volunteers in Service to America                                 VISTA
                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), conducted a performance audit of the World Won Development Center’s
Fitting Back In program. The scope of the audit included Volunteers in Service to
America (VISTA) grants awarded to the World Won Development Center’s Fitting Back
In program. Subsequent to the initial grant award, Fitting Back In received authorization
to operate as a 501(c)(3) organization independent of World Won Development Center
and World Won For Christ Outreach Ministries. Hereafter, we will refer to the grantee as
Fitting Back In. The objectives of the audit were to determine whether Fitting Back In’s
(1) financial, grant and program management were compliant with the requirements of
its American Recovery and Reinvestment Act (ARRA) and non-ARRA VISTA grants; (2)
VISTA members, and the programs for grants awarded under ARRA and non-ARRA
VISTA grants were compliant with applicable laws, regulations, and grant provisions;
and (3) internal controls were effective.

Our audit work determined that Fitting Back In’s financial management system was not
in compliance with applicable regulations. Fitting Back In uses QuickBooks Premier
Non-Profit 2010 edition but was not utilizing the full capability of the accounting software.
Fitting Back In was not using double entry accounting. Also, the general ledger (GL)
provided by Fitting Back In did not readily identify the source and application of
Corporation funds. We also noted that a VISTA member was employed while serving.
The member said there was a “don’t ask, don’t tell” climate regarding members seeking
employment while serving as a VISTA. Also, Fitting Back In’s time and activity reporting
could be improved to more accurately track time and activities in accordance with Office
of Management and Budget (OMB) Circular A-122, Cost Principles for Non-Profit
Organizations, Attachment B, Selected Items of Cost, Paragraph 8m. Support of
Salaries and Wages. The timesheets did not reflect to which grants labor costs were
charged. Additionally, the CEO’s time was split between Fitting Back In and other World
Won for Christ programs. However, his timesheets only reflected time and activity for
the Fitting Back In program. Finally, Fitting Back In’s written financial management
policy was not in compliance with regulations. It did not include written policies and
procedures that state how it will minimize the time between the drawdown grant funds
and expending the transfer of cash from the Corporation, or determining the
reasonableness, allocability and allowability of costs in accordance with applicable
Federal cost principles and the terms and conditions of the award.




                                              1
                                         RESULTS OF AUDIT

Finding 1.      Fitting Back In’s financial management system was not in
                compliance with applicable regulations.

Fitting Back In could not produce accounting reports that accurately accounted for
Corporation grant funds. We judgmentally selected 19 transactions from Fitting Back
In’s GL for our initial testing. After testing the first eight transactions, we noticed a trend
and discontinued testing. The transaction testing disclosed that, at the time of our site
visit, Fitting Back In’s accounting software setup and use did not comply with applicable
regulations. Fitting Back In uses QuickBooks Premier Non-Profit 2010 edition but was
not utilizing the full capability of the accounting software. Although all eight transactions
were properly supported with source documentation, seven of the eight transactions
were recorded in the accounting system without using double entry accounting.
Because Fitting Back In was not using double entry accounting, we were unable to
match an asset or liability entry to its corresponding entry, as is required with double
entry accounting. Complete, current and accurate financial reports cannot be generated
if the entries that generate the reports are not complete and correct. Therefore, we
concluded that Fitting Back In’s financial system did not produce accurate, current and
complete disclosure of its financial results and was not in compliance with Federal
requirements.

OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and other Non-Profit Organizations
Subpart C – Post Award Requirements §215.21.b.1 states that “recipients’ financial
management systems shall provide for the following, (1) accurate, current and complete
disclosure of the financial results of each federally-sponsored project.”

In addition, the GL provided by Fitting Back In did not readily identify the source and
application of Corporation funds. Two factors contributed to this lack of visibility. First,
the GL Fitting Back In originally provided did not include both debit and credit entries for
transactions or show object classes or payments that posted to multiple accounts (split).
Secondly, the method Fitting Back In used to segregate Federal funds also affected the
visibility over the source and application of funds. Fitting Back In used the Corporation
application identification number (app id) rather than the grant number to segregate
funds in the accounting system. Although the app id can be traced to the Corporation
grant numbers, using app id impedes visibility of funding source and application.

We believe that Fitting Back In’s accounting system setup and segregating Corporation
funds using app ids created the appearance that unallowable costs were charged to the
grant. Fitting Back In was awarded overlapping grants; and all Corporation grants to
Fitting Back In were for the same program. This increased the likelihood of misapplied
payments. When informed of the issues concerning its accounting system, Fitting Back
In worked with a Certified Public Accountant (CPA) to reconfigure its accounting system.



                                               2
Fitting Back In then provided us with an updated GL that included both class and split
and we were able to determine which expenditures were charged to Federal funds.
Although the updated GL allowed for visibility over the source and application of grant
funds, all split transactions did not post to the correct accounts. The updated GL
allowed us to determine that unallowable costs were not charged to the grant.

OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and other Non-Profit Organizations
Subpart C – Post Award Requirements §215.21.b.2 states that the recipients' financial
management systems shall provide “[r]ecords that identify adequately the source and
application of funds for federally-sponsored activities. These records shall contain
information pertaining to Federal awards, authorizations, obligations, unobligated
balances, assets, outlays, income and interest.”

Recommendation 1

We recommend that the Corporation ensure that Fitting Back In’s financial management
system can:

    1a. Produce financial reports that are accurate, current, and complete;
    1b. Identify the source and application of Corporation grant funds; and
    1c. Properly segregate Federal funds.

    Corporation’s Response

    Fitting Back In made significant changes to its accounting system to address the
    recommendations. Changes were made to the general ledger and chart of
    accounts to address the recommendations during the course of the audit. However,
    split transactions were not posting to the proper accounts. The Corporation
    discussed split transactions with Fitting Back In staff and received a revised
    accounting policy that addressed the issue. The revised practice adequately
    addressed the issue and should strengthen compliance with accurate reporting of
    split transactions. The Corporation considers this action complete.

    Fitting Back In’s Response

    Fitting Back In concurred with the finding and recommendations. Fitting Back In
    staff worked with its accounting consultant and reconfigured its accounting software.
    A corrected GL was submitted to the OIG. The corrected GL accurately reflected
    Fitting Back In’s financial activity and the corrected format was adopted by Fitting
    Back In.




                                            3
    OIG’s Comment

    Both the Corporation and Fitting Back In’s responses satisfy the intent of the
    recommendations. Fitting Back In immediately began corrective action for this
    finding. It submitted a corrected GL that showed both the source and use of
    Corporation funds. Fitting Back In provided a copy of its revised accounting policies
    that includes procedures for reconciliations of the GL and reviews of monthly
    financial reports.

Finding 2.     VISTA member was employed while serving at host site.

One VISTA member we interviewed said that he worked at a grocery store while serving.
The member said he was told that no one would acknowledge the member had other
employment as long as the member did not ask for permission or inform anyone that he
had a job. The member did not attribute this information to any individual, but said there
was a “don’t ask, don’t tell” climate regarding members seeking employment while
serving as a VISTA. The member said the perceived “don’t ask, don’t tell” climate
changed within the first few months of his service and the member terminated his
employment at the grocery store. The member said he now realizes the prohibition on
outside employment was and is serious. When a member engages in unallowable
activities, any benefit received by that member could be unallowable.

The Domestic Volunteer Service Act (DVSA) of 1973, as amended by the Edward M.
Kennedy Serve America Act of 2009, states in section 104(a) “[v]olunteers serving under
this part shall be required to make a full-time personal commitment to combating poverty
and poverty-related problems. To the maximum extent practicable, the requirement for
full-time commitment shall include a commitment to live among and at the economic
level of the people served, and to remain available for service without regard to regular
working hours, at all times during their periods of service, except for authorized periods
of leave.” The VISTA member handbook, Chapter 1. Overview of Roles, Rules and
Restrictions, Paragraph 2 interprets that requirement by stating that “members remain
available for service, without regard to regular working hours, at all times during the
member’s service, except for periods of approved leave. As a result, employment is not
permitted during AmeriCorps VISTA service, and you may not be absent from the project
without approval from the sponsoring organization or supervisor.”

Recommendation 2

We recommend that the Corporation ensure that Fitting Back In effectively
communicates to its members the rules, regulations and policies that must be adhered to
in the VISTA program, including the prohibition regarding outside employment.




                                            4
    Corporation’s Response

    Fitting Back In management held in-service training sessions at all host sites for all
    VISTA members to review the rules, regulations and policies and emphasized that
    outside employment is prohibited. All future VISTA members will receive similar
    training. The Corporation considers this action complete.

    Fitting Back In’s Response

    Fitting Back In concurred with the finding and recommendation. Fitting Back In held
    in-service training at all host sites and reiterated that outside employment is
    prohibited while serving as VISTA member. The VISTA members were given the
    applicable handbook reference. The members signed an interoffice memorandum
    that incorporated by attachment the applicable reference. Signed copies of the
    memorandum are part of the VISTA member’s personnel file.

    OIG’s Comment

    Both the Corporation and Fitting Back In’s actions satisfy the intent of the
    recommendation.


Finding 3.     Time and activity reporting could be improved to more accurately
               track time and activity.

We obtained and reviewed the time and activity reports (timesheets) of the Fitting Back
In employees. Fitting Back In employees used day planner calendar pages (timesheets)
to record their time and activity. On the calendar page, Fitting Back In employees
recorded hours worked in the office and in the field. Vacation and sick leave were not
consistently recorded on the timesheets. Because all Fitting Back In employees, with
the exception of the Chief Executive Officer (CEO), were 100 percent dedicated to the
program, the timesheets reflected 100 percent of their activity. None of the timesheets
reflected which grants were charged. The CEO’s time was split between Fitting Back In
and other World Won for Christ programs. However, the CEO’s timesheet only reflected
time and activity for the Fitting Back In program. The calendar pages were generally
signed by the employee and their supervisor and were dated by the employee,
supervisor or both. The timesheet for the CEO did not include a “supervisory” signature.
Because of the issues, we determined that Fitting Back In’s time and activity reporting
was not in accordance with OMB Circular A-122, Uniform Administrative Requirements
for Grants and Agreements with Institutions of Higher Education, Hospitals, and other
Non-Profit Organizations Attachment B, Selected Items of Cost, Paragraph 8.m. Support
of Salaries and Wages which states at subsection 2.a. that “the report must reflect an
after-the-fact determination of the actual activity of each employee.” The timesheets we
reviewed did not accurately reflect how each member whose compensation was charged



                                            5
to the grant was allocated for time spent on other projects. The member would provide a
brief description of what they accomplished each hour of the day, but did not separate
out which grant their time was charged. Fitting Back In received multiple Federal grants
during fiscal year 2009; and Fitting Back In does not record time and activity in a manner
that differentiates which grant should be charged for the work completed during a pay
period.

Paragraph 8.m.1 also states that “charges to awards for salaries and wages, whether
treated as direct or indirect costs, will be based on documented payrolls approved by a
responsible official (s) of the organization.”

Fitting Back In personnel began taking steps to correct these issues during our site visit.

Recommendation 3

We recommend that the Corporation ensure that Fitting Back In:

    3a. Develops timesheets or time and attendance reports that comply with OMB
        circular and grant provisions as part of the financial management system
        review; and
    3b. Develops a policy to authorize another individual to verify and sign the CEO’s
        timesheet.

    Corporation’s Response

    During the audit fieldwork, the auditors recommended that Fitting Back In use an
    approved style of timesheet that is widely used across government agencies. This
    style of timesheet was approved for use in April 2011 by Fitting Back In. In addition,
    the Fitting Back In’s accounting policy was updated to include approval procedures
    for the CEO’s timesheet. The Corporation considers this action complete.

    Fitting Back In’s Response

    Fitting Back In concurred with the finding and recommendations. In April 2011, it
    adopted a new timesheet and updated its policies to include approval procedures
    for the CEO’s timesheet.

    OIG’s Comment

    Both the Corporation and Fitting Back In’s responses satisfy the intent of the
    recommendations. During the site visit, the auditors provided Fitting Back In staff
    an example of a compliant timesheet and recommended a timesheet of similar style
    be adopted. The management of Fitting Back In adopted a timesheet modeled after
    the example provided by the auditors.



                                             6
Finding 4.      Fitting Back In’s written financial management policy was not in
                compliance with regulations.

Although Fitting Back In has comprehensive written policies and procedures, it does not
have written policies and procedures that state how it will minimize the time between the
drawdown grant funds and expending the transfer of cash from the Corporation; or for
determining the reasonableness, allocability and allowability of cost. Fitting Back In is
authorized to drawdown funds in advance of expenditures; therefore, it should have a
written drawdown policy. In order to minimize the probability of earning interest on grant
funds, Fitting Back In drawdowns are requested to reimburse expenses incurred.
Additionally, Fitting Back In does not have written policies and procedures for
determining the reasonableness, allocability and allowability of costs.

OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations
Subpart C – Post Award Requirements §215.22.a states that “[p]ayment methods shall
minimize the time elapsing between the transfer of funds from the U.S. Treasury and the
issuance or redemption of checks, warrants, or payment by the means by the
recipients.” §215.22.b states that “recipients are to be paid in advance, provided they
maintain or demonstrate the willingness to maintain: (1) Written procedures that
minimize the time elapsing between the transfer of funds and disbursement by the
recipient.”

§215.21.b(6) states that “[w]ritten procedures for determining the reasonableness,
allocability and allowability of costs in accordance with the provisions of the applicable
Federal cost principles and the terms and conditions of the award.”

Fitting Back In’s Executive Director believed that since funds were drawn down to
reimburse expenses, a written policy stating how Fitting Back In will minimize the time
between the drawdown grant funds and expending the transfer of cash was
unnecessary. However, without sufficient up-to-date policies to guide employees, Fitting
Back In may drawdown more funds than is required to meet program expenses and
accrue interest due to the Government; and unreasonable, unallocable and unallowable
costs could be charged to the grant.

Recommendation 4

We recommend that the Corporation ensure that Fitting Back In’s policy and procedures:

    4a. Comply with the OMB Circular A-110 Post Award Requirements §215.22,
        including the requirement to minimize the time between drawdown and
        expending of grant funds; and




                                             7
    4b. Comply with the OMB Circular A-110 requirements §215.21 including, the
        requirement to have written policy to determine reasonableness, allocability and
        allowability of costs.

    Corporation’s Response

    Fitting Back In developed a written policy for the drawdown of funds dated April 21,
    2011. The Corporation received a copy of the policy and has ensured that it
    properly details the drawdown procedure of grant funds in a way to minimize the
    time between drawdowns and expenditures. The policy also describes the
    reasonableness, allocability and allowability of costs. The Corporation considers
    this action complete.

    Fitting Back In’s Response

    Fitting Back In concurred with the finding and recommendations. When Fitting
    Back In became aware of the requirement, it amended its accounting policies
    and procedures to reflect its drawdown method.

    OIG’s Comment

    Both the Corporation and Fitting Back In’s responses satisfy the intent of the
    recommendations.


                        OBJECTIVES, SCOPE AND METHODOLOGY

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our audit findings and conclusions based on
our audit objectives.

The objectives of this audit are to determine whether: (1) World Won Development
Center’s financial, grant, and program management are compliant with the requirements
of ARRA and non-ARRA VISTA grants; (2) World Won Development Center, VISTA
members, and the programs (sponsors and sub-recipients) for grants awarded under
ARRA and non-ARRA VISTA are compliant with applicable laws, regulations, and grant
provisions; and (3) internal controls are effective.

We conducted our audit between February 2011 and July 2011. We conducted onsite
fieldwork at Fitting Back In’s headquarters in Tulsa, OK, during the week of April 4, 2011.
The audit focused on the review of the grant disbursements relating to the ARRA funds



                                            8
as well as member compliance with VISTA terms and regulations for Grants Nos.
09VSWOK004, 09RVWOK007, and 10VSWOK001. We judgmentally selected a sample
of 19 prior and current VISTA members serving at any time from April 2009 to May 2011.
We interviewed nine of the VISTA members to gain an understanding of their VISTA
experiences and determine if they were performing any unallowable services. Our
samples were randomly selected from a list of all participating VISTA members from
April 2009 to May 2011. We made several attempts to contact the other 10 VISTA
members but were unsuccessful. The interviews we conducted were conducted in
person while onsite and over the phone from our office. In addition to the VISTA
members, we also interviewed selected Fitting Back In management and staff to gain an
understanding of employees’ activities.

In addition to the interviews, we performed testing on selected transactions from Fitting
Back In’s financial records. We also reviewed its internal controls to determine who is
allowed to enter financial information into Fitting Back In’s financial system. We tested
transactions related to the following grants:

                           Grant Number         Dollar Amount Awarded
                          09VSWOK004                     $01
                          09RVWOK007                   $702,359
                          10VSWOK001                   $676,675

We reviewed VISTA policies, procedures, laws and regulations related to the operation
of VISTA programs, as well as the policies and procedures practiced by Fitting Back In
with regards to their internal controls over their program compliance.


                                                Background

AmeriCorps VISTA is the national service program designed to fight poverty and build
economic opportunity. VISTA engages individuals 18 years and older in a year of
service as full-time volunteers to non-profit organizations and local agencies that serve
low income communities. The programs purpose is to strengthen efforts to alleviate
poverty by encouraging people from all walks of life to engage in meaningful volunteer
service. The legislation under which the VISTA program operates is the DVSA of 1973,
Pub. L. 93-113, 42 U.S.C. §§4950-5084. This law, as amended by the Edward M.
Kennedy Serve America Act of 2009, Pub. L. 111-13, outlines the purpose and
parameters within VISTA may operate. As described by the DVSA, the three main
objectives of the program are to generate private sector resources, encourage volunteer
service, and strengthen local organizations that serve low-income communities.



1
 Standard VISTA grant awards do not provide monetary resources to the VISTA sponsor. If a sponsor is
awarded a standard VISTA grant, the Corporation provides support for VISTA members approved in the
memorandum of agreement with the sponsor.


                                                  9
A VISTA program is initiated when a non-profit organization or public agency signs a
MOA with the Corporation to sponsor a specific number of full-time VISTA members. In
effect, the funding to support VISTA members is administered directly by the
Corporation, rather than by the selected organizations. For Fitting Back In, the
Corporation awarded an ARRA grant to supplement the VISTA resources and provide
support to the Fitting Back In program.

ARRA was an effort to provide a rapid response to the economic downturn that hit the
country in late 2008 with the intent to build the foundation for long-term growth. Of the
$200 million in ARRA funding received by the Corporation, the VISTA program was
allocated $65 million. The Corporation was required to obligate the funds by September
2010. Fitting Back In is funded by regular appropriations and ARRA funds. The total
amount of ARRA funding awarded to Fitting Back In, as of November 2, 2009, was
$702,359. As of September 22, 2011, HoganTaylor, LLP is conducting field work for
Fitting Back In's first OMB Circular A-133 audit.

At the time of grant award, Fitting Back In was a program operated by the World Won
Development Center, a division of the World Won For Christ Outreach Ministries, Inc.
On May 26, 2010, subsequent to the initial grant award, Fitting Back In received
authorization to operate as a 501 (c)(3) organization independent of World Won
Development Center and World Won For Christ Outreach Ministries. The Fitting Back In
program has offices in Tulsa and Oklahoma City, OK and Aurora, CO, all of which
actively use VISTA members for needed support of the Fitting Back In program. Fitting
Back In seeks to help rehabilitate criminal offenders allowing them to re-join society as
well-functioning citizens. The VISTA resources awarded to Fitting Back In were used to
establish partnerships with local businesses, community centers, and district courts.
The VISTA members assigned to Fitting Back In received a monthly living allowance,
were eligible for health and child care coverage, and were given the choice of receiving
an education award or an end-of-service stipend.

                                   EXIT CONFERENCE

We conducted an exit conference with Corporation and Fitting Back In representatives
on July 15, 2011. We summarized the responses of the Corporation and Fitting Back In
to the draft report after each recommendation and included the responses, in their
entirety, as Appendices A and B, respectively.




Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service




                                           10
APPENDIX A
                                     NATIONAL&:
                                     COMMUNITY
                                     SERVICEtt.tt:

To:

From:

Date:          October 24,2011

Subject:       Response to OIG Draft Report on the Audit of Corporation for National and
               Community Service Volunteers in Service to America (VISTA) Grants awarded
               to World Won Development Center's Fitting Back In Program.

Thank you for the opportunity to review the OIG draft report on the audit ofthe
Corporation for National and Community Service Volunteers in Service to America (VISTA)
 Grants awarded to World Won Development Center's (WWDC) Fitting Back In Program
 (FBIP). We reviewed the draft report and participated in discussions with representatives of
WWDCIFBIP. The Corporation concurs with all the recommendations in the audit and affirmed
in October 2011 that the grantee completed corrective action on all audit findings and
recommendations. Our response to each fmding and recommendation is described below.

Finding 1. WWDCIFBIP's fmancial management system was not in compliance with applicable
regulations.

Recommendation to the Corporation to ensure WWDC/FBIP's {"mancial management
system can:

        1a. Produce financial reports that are accurate, current and complete;
        1b. Identify the source and application of Corporation grant funds; and
        1c. Properly segregate Federal funds.

Corporation Response: WWDCIFBIP has made significant changes to its accounting system to
address recommendations. During the audit field work CCDCIFBIP made changes to the
General Ledger and Chart of Accounts to address recommendations; however, there remained an
issue with split transactions as amounts were not properly posting to the proper accounts. We
have discussed the split transactions with WWDCIFBIP representatives and have received the
revised accounting policy addressing the issue. We have reviewed the revised practice and
ensured that it adequately addresses the issue and should strengthen compliance with accurate
reporting of split transactions. (Action Complete)

Finding 2. VISTA member was employed while serving at host site.

Recommendation to the Corporation to ensure WWDC/FBIP effectively communicates to
its members:
2a. The rules, regulations and policies that must be adhered to in the VISTA program, including
the prohibition regarding outside employment.

Corporation Response: WWDC/FBIP management held in-service training sessions at all host
sites for all VISTA members to review the rules, regulations and policies and emphasized that
outside employment is prohibited. All future VISTA members will receive similar training.
(Action Complete)

Finding 3. Time and activity reporting could be improved to more accurately track time and
activity.

Recommendation to the Corporation to ensure that WWDC/FBIP:

3a. Develop timesheets or time and attendance reports that comply with OMB circular and grant
provisions as part of the financial management system review; and
3b. Develop a policy to authorize another individual to verify and sign the CEO's timesheet.

Corporation Response: During the audit field work, the auditors recommended WWDC/FBIP
use an approved style of time sheet that is widely used across government agencies. This style
timesheet was adopted for use in April 2011 for all administrative staff compensated by any
federal, state or foundation grant. On April 21, 2011 the Accounting Policy was updated to
include the new policy that the CEO's timesheet would be submitted bi-weekly and reviewed by
Human Resources personnel for correctness in terms of the percentages charged to the
appropriate grants. After HR approval, the time sheet is signed and reviewed by the Executive
Director after which it will be submitted to the Fiscal Manager for payroll. We have reviewed the
revised timesheets and policy concerning the CEO's timesheet and ensured that it adequately
addresses the issue. (Action Complete)

Finding 4. Fitting Back In's written financial management policy was not in compliance with
regulations.

Recommendation to the Corporation to ensure FBIP {"mancial management policy and
procedures:

4a. Comply with the OMB Circular A-110 Post Award Requirements §215.22, including the
requirement to minimize the time between drawdown and expending of grant funds; and produce
financial reports that are accurate, current and complete;
4b. Comply with the OMB Circular A-110 requirements §215121 including, the requirement to
have written policy to determine reasonableness, allocability and allowability of costs.

Corporation Response: WWDC/FBIP has developed a written policy for the drawdown of
funds dated April 21, 2011. We have received a copy of this policy and have ensured that it
properly details the drawdown procedure of grant funds in a way to minimize the time between
drawdowns and expenditures. This policy also describes the reasonableness, allocability and
allow ability of costs. (Action Complete)
cc:   William Anderson, Chief Financial Officer
      Rocco Gaudio, Deputy CFO and Director ofFFMC
      Michael Berning, Director ofField Liaison
      Kathie Ferguson, Area Manager
      Theresa Long, OK State Director
      Claire Moreno, Audit Liaison, Office of Grants Management
      Sherry Blue, Audit Resolution Coordinator, Office of the CFO
      Wendell "Wink" West, Senior Grants Management Specialist, FFMC
      Janet Caranci, Grants Management Specialist, FFMC
APPENDIX B
October 5, 2011



Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation of National and Community Service
1201 New York Avenue, NW Suite 830
Washington, DC 20525

Dear Mr. Axenfeld,

I would like to take this opportunity to thank you and your team for conducting such a thorough audit
on the Fitting Back In agency on April 4th through April 8th, 2011 at our facility in Tulsa, Oklahoma. It has
been a pleasure working with you and your team on-site and off-site throughout this audit process.
Below you will find the audit finding responses to the Office of Inspector general.

If you have any further questions or comments, please do not hesitate to give me a call or email.

Sincerely,



Billon S. Constable, PhD, MBA
Executive Director
Fitting Back In, Inc Agency – Prisoner Reintegration Services
Office: 918-592-3500 Ext-238
bconstable@fittingbackininc.org
www.fittingbackininc.org

cc:     Melvin Cooper, Chief Executive Officer
        Theresa Long, Director, OK State Office CNCS
        Janet Caranci, Grant Management Specialist
        Karen Gardner, Auditor, Office of Inspector General
        Thomas Chin, Managing Auditor, Office of Inspector General



                                            Mission Statement
             “Helping people to build a better tomorrow through Changing One life at a time”
Finding 1
We concur with the Office of Inspector General finding that our QuickBooks for Non-profit software
was not configured appropriately to show the double entry as it relates to the general ledger entries.
However, as this findings was noted by Karen Gardner the lead Auditor from the office of inspector
general our accounting consultant Dana Curtis, CPA CFE corrected the software configuration and a
new general ledger was resubmitted to the office of inspector general. The new corrected general
ledger was received and was accepted by Karen Gardner showing all double entry transactions.

Responses
This finding was fixed on April 15, 2011 and a copy was submitted to the OIG for its approval. Since the
corrected General Ledger was accepted this format has become our permanent method of
demonstrating our accounting software.

Finding 2
We concur with the office of inspector general finding of Vista member was employed while serving at
host site.

Responses
Since we became aware of this information that a Vista member was employed while serving as a Vista
member we conducted in-service training at all host site and emphatically and categorically point out
clearly from the AmeriCorps*Vista member handbook page 11 under sub-heading “Role of the
AmeriCorps*Vista member. The second paragraph in the sub-heading reads “full or part-time
employment is not permitted during AmeriCorps*Vista service”. We also attached a copy of the page
from the AmeriCorps*Vista handbook to an inter-office memo and distributed it to all Vista volunteer
members with a signature sheet as a verification that they receive this important information as a
reminder. The Denver, CO Satellite office in-service training took place on June 8-9, 2011 and the Tulsa
and Miami in-service training took place on October 6, 2011.

Finding 3
We concur with the office of inspector general finding of Time and activity reporting could be
improved to more accurately track time and activity.

We concur with the office of inspector general on the finding of the style of time sheet method that
were used does not indicate anywhere on the sheet which grant or what percentage of the grant fund
should have been charged for each of the staff.

Responses

    1. Auditor Karen Gardner recommended an approved style of timesheet that is widely used by
       different government agency and we adopted this style on April 21, 2011. Attached is a copy of
       our new adopted time sheet used by all administrative staff that is compensated by any federal,
       state or private foundation grants for accuracy of time spent on each approved program grant.

    2. Since we were made aware of the finding, we have amended our accounting policies and
       procedures to reflect our authorized personnel to sign off on the CEO Timesheet. Attached is a
       copy of the amended accounting policies and procedures indicating who is authorized. See Page
       17 highlighted area of the attached accounting policy and procedures manual
Finding 4

We concur with the office of inspector general finding of written financial management policy was not
in compliance with regulations

Reponses
Since we were made aware of the finding, we have amended our accounting policies and procedures to
reflect our drawdown method from the HHS portal. Attached is a copy of the amended accounting
policies and procedures of the drawdown method. See Page 20 highlighted area of the attached
accounting policy and procedures manual
